HHS/OIG-Audit--"Payments to Child Placing Agencies Under Title IV-E Foster Care Program, Indiana Family and Social Services Administration, (A-05-96-00055)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Payments to Child Placing Agencies Under Title IV-E Foster Care Program, Indiana
Family and Social Services Administration (A-05-96-00055)
June 27, 1997
Complete Text of Report is available in PDF format
(155 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the Results of our Audit of Payments to Private
Child Placing Agencies under the Title IV-E Foster Care Program in the State
of Indiana. The Title IV-E program is administered by the Indiana Family and
Social Services Administration (State agency). Our objectives were to determine
(i) whether payments claimed for Federal financial participation (FFP) under
Title IV-E were made to eligible child placing agencies under contract with
the State agency and (ii) whether the child placing agencies were retaining
a part of the foster care payment intended for the foster child's maintenance
expenses. We also reviewed the State agency's monitoring of child placing agencies
to ensure that children placed in foster family homes are receiving adequate
and quality care.